I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

T O D D, E RI C
P etiti o n er
vs.

N o:

2 0- 7 3 2 5

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M ar c h 1 0, 2 0 2 1
c c:
P HI LI P M. L O N G M E Y E R
DI N S M O R E & S H O H L L L P
101 S O U T H 5 T H S T R E E T
S UI T E 2 5 0 0
L O UI S VI L L E, K Y 4 0 2 0 2

